No. ____________________
IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2020
ALBERTO JULIO GARCIA

Petitioner,
vs.

STATE OF MISSISSIPPI,

Respondent

THIS IS A CAPITAL [DEATH PENALTY] CASE
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner, ALBERTO JULIO GARCIA, through counsel, asks leave to file
the Petition for Writ of Certiorari tendered herewith to the Supreme Court of
Mississippi without prepayment of costs and to proceed in forma pauperis. As per the
attached order, Petitioner was declared indigent and proceeded in forma pauperis on
appeal in the State of Mississippi. In accordance with that status, the Petitioner was
represented in the Supreme Court of Mississippi by the Capital Defense Counsel
Division of the Mississippi State Public Defender pursuant to Miss. Code Ann §§ 9918-3 through 17 providing for the representation of indigent persons on direct appeal
in matters in which the death penalty has been imposed. Id. at §§ 99-18-5, -7. For
purposes of Supreme Court Rule 39, the cited provisions constitute “the provision of
law under which counsel was appointed” for an “indigent party” in the Mississippi
Supreme Court.
SO MOVED, this 8th day of February, 2021.

1

Respectfully submitted,
ALBERTO JULIO GARCIA, Petitioner
By: s/ André de Gruy
.
Counsel of Record for Petitioner

André de Gruy*
Alison Steiner
Office of the State Public Defender
Capital Defense Counsel Division
239 N. Lamar Street, Suite 601
Jackson, MS 39201
601-576-2315 (direct line)
adegr@ospd.ms.gov
Counsel for Petitioner
*Counsel of Record

2

II

IN THE CIRCUIT COURT OF HARRISON COUNTY, MISSISSIPPI
FIRST JUDICIAL DISTRICT
STATE OF MISSISSIPPI
CAUSE NO.: B2401-15-500

VERSUS

DEFENDANT

ALBERTO JULIO GARCIA

ORDER ALLOWING IN FORMA PAUPERIS APPEAL
THIS DAY this cause came on for consideration on the Motion of the Defendant to proceed
with his appeal informa pauperis. The Defendant ALBERTO JULIO GARCIA seeks leave of the
Court to appeal informa pauperis from the jury's verdict and other matters in this case. He has filed
a Notice of Appeal with the Harrison County Circuit Court indicating that he seeks to proceed in
forma pau.peris. The Defendant proceeded at the trial level informa pauperis and was represented by
the Office of the Public Defender herein. There is nothing in this record which indicates any change

in the Defendant's status with respect to this issue. The Court will allow the Defendant to proceed in
forma pauperis as he is qualified as a pauper pursuant to the applicable statutes and rules. It is
therefore,
ORDERED, that the Defendant ALBERTO JULIO GARCIA is hereby granted leave to
proceed with his appeal in this cause in for ma pauperis.
SO ORDERED, this the /t<lay of April, 2017.

~. . ~o -':604..__
CJRC:IT COURT JUDGE

Copy To:

(EO [b ~fR1

Angela Broun Blackwell
Public Defender's Office

/f
525

R II 2017

-11

1

'

